TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                           Designated Payment Codes Are
                             Inaccurate and Ineffective



                                          March 28, 2012

                              Reference Number: 2012-30-026




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 Tax Return/Return Information



 Phone Number | 202-622-6500
 E-mail Address | TIGTACommunications@tigta.treas.gov
 Website        | http://www.tigta.gov
                                                   HIGHLIGHTS


DESIGNATED PAYMENT CODES ARE                           processing of the form used to submit
INACCURATE AND INEFFECTIVE                             subsequent payments do not ensure that DPCs
                                                       are applied. As a result, DPC data cannot be
                                                       used to determine the effectiveness of collection
Highlights                                             actions, and some IRS reports used to monitor
                                                       and report collection activities are not accurate.
Final Report issued on March 28, 2012                  TIGTA also reviewed a random sample of
                                                       subsequent payments made after the IRS filed
Highlights of Reference Number: 2012-30-026            Letter 3172, Notice of Federal Tax Lien Filing
to the Internal Revenue Service Commissioner           and Your Rights to a Hearing under IRC 6320,
for the Small Business/Self-Employed Division.         and determined that DPCs were not always
                                                       used. After liens were filed, it was not always
IMPACT ON TAXPAYERS
                                                       clear why the taxpayer made the payment. In
The IRS established Designated Payment                 addition, DPC procedures do not address partial
Codes (DPC) to identify IRS enforcement                subsequent payments resulting from liens.
actions or other events that result in taxpayers
submitting subsequent payments on their                WHAT TIGTA RECOMMENDED
balance due accounts. However, the IRS is not          TIGTA recommended that the IRS: 1) ensure
consistently or accurately applying DPCs, which        there is a DPC for all IRS actions that are
reduces the IRS’s ability to assess the                primarily responsible for taxpayers submitting a
effectiveness of its collection actions. Ineffective   payment; 2) establish controls to ensure DPCs
use of IRS collection resources can                    are applied consistently and accurately;
unnecessarily burden the majority of taxpayers         3) revise Form 3244, Payment Posting Voucher,
who fully and timely pay their taxes.                  and its instructions to clarify the DPC
                                                       requirement for all listed transaction codes;
WHY TIGTA DID THE AUDIT
                                                       4) revise Letter 3172 to allow the taxpayer to
This audit was initiated to determine whether the      send in the notice with any subsequent
IRS is consistent and accurate in applying DPCs        payment; and 5) establish a DPC for partial
to subsequent payments received on balance             subsequent payments and installment
due accounts. The audit is included in TIGTA’s         agreement payments made in response to the
Fiscal Year 2012 Annual Audit Plan and                 filing of a lien.
addresses the major management challenge of
                                                       IRS management plans to conduct an expanded
Tax Compliance Initiatives.
                                                       review of DPCs, which agrees with the intent of
WHAT TIGTA FOUND                                       our first three recommendations. IRS
                                                       management did not agree with
TIGTA reviewed a statistical sample of                 Recommendations 4 and 5, stating that
138 subsequent payments that posted to                 Recommendation 4 places undue burden on the
taxpayer balance due accounts. TIGTA                   taxpayer, while Recommendation 5 would not
determined that 106 (77 percent) of the                accurately measure the target metric.
138 subsequent payments were processed
without the required DPC. In addition,                 TIGTA believes Recommendation 4 makes the
11 (34 percent) of the 32 subsequent payments          procedures for Letter 3172 consistent with those
that had a DPC were not accurate. DPCs are             for Form 8519, Taxpayer’s Copy of Notice of
not consistently or accurately applied in the          Levy, which instructs the taxpayer to include a
majority of cases because: 1) the IRS has not          copy of the notice with the payment.
established DPCs to account for all types of           Recommendation 5 is intended to allow the IRS
subsequent payments, including those made in           to measure the impact of filing liens by
response to an IRS notice; 2) DPC procedures           identifying specific subsequent payments made
on how to process subsequent payments                  by the taxpayer due to the filing of a lien.
submitted directly to an IRS campus are
inconsistent; and 3) the format, instructions, and
                                            DEPARTMENT OF THE TREASURY
                                                 WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                             June 12, 2012



 MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                DIVISION


 FROM:                       Michael E. McKenney
                             Acting Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – Designated Payment Codes Are Inaccurate and
                             Ineffective (Audit # 201130015)

 This report presents the results of our review to determine whether the Internal Revenue Service
 (IRS) is consistent and accurate in applying Designated Payment Codes (DPC) to subsequent
 payments received on taxpayer balance due accounts. This audit was conducted based on the
 National Taxpayer Advocate’s 2009 Report to Congress and at the request of the IRS Oversight
 Board. This audit is included in our Fiscal Year 2012 Annual Audit Plan and addresses the
 major management challenge of Tax Compliance Initiatives.
 IRS management provided an updated response, dated May 28, 2012, which has been
 incorporated in this revision of the report. IRS management included some general comments
 and assertions about DPCs and our report that we believe warrant additional comment. We have
 included portions of management’s response and our related comments below.
 Management’s Response:
         DPCs are intended to identify some of the collection activities that precede the payment
          received. While DPCs can be useful, there are limitations to the scope of their utility. In
          fact, as pointed out in your report, procedures between field and campus employees
          differ. Therefore, we will use the review mentioned above to determine the appropriate
          use of DPCs and take actions accordingly.
                                             Designated Payment Codes
                                            Are Inaccurate and Ineffective



Office of Audit Comment:
The purpose of DPCs, verbatim from the Internal Revenue Manual,1 is to “identify the event
(e.g., lien, levy, seizure) that was primarily responsible for the subsequent payment being made.
DPCs are used at the time the subsequent payment is processed. Data from this type of input are
congressionally mandated and should be accumulated on a national basis to determine the
revenue effectiveness of specific collection activities.” We believe the inconsistent IRS
procedures for applying DPCs are “limiting the scope of their utility.” Our recommendations
will expand the scope of the DPCs’ utility by including subsequent payments submitted due to
IRS notices, liens, and payments received for installment agreements established in response to a
lien.
Management’s Response:
     Care must be taken in the use of DPC data because the taxpayer’s motivation for making a
      payment can rarely be isolated to a single factor.
Office of Audit Comment:
The Internal Revenue Manual requires the IRS to record the “event” that was “primarily
responsible” for the subsequent payment being made. It does not require the identification of
taxpayer motivation or an exclusive single factor. The proper use of DPCs would allow IRS
management to better assess the effectiveness of specific collection actions by associating them
with payments.
Management’s Response:
     The draft audit report cited DPC accuracy findings. The audit steps did not include review of
      the payment source documents, making the determination of accuracy open for further
      analysis. Based on available information, we do not concur with the accuracy findings
      outlined in the report.
Office of Audit Comment:
The types of errors we identified are not subjective. For example, many of the errors involved
the use of a DPC indicating a subsequent payment submitted with an amended return, but there
was no amended return associated with the taxpayer. A review of source documentation would
not change the nature of the mistakes we identified, but could be helpful in determining who
made them.
Management’s complete response to the draft report is included as Appendix VIII.




1
    Internal Revenue Manual 5.2.8.1 (August 15, 2008).
                                                                                                   2
                                    Designated Payment Codes
                                   Are Inaccurate and Ineffective



Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                       3
                                                   Designated Payment Codes
                                                  Are Inaccurate and Ineffective




                                            Table of Contents

Background .......................................................................................................... Page 1

Results of Review ............................................................................................... Page 2
          Designated Payment Codes Are Not Consistently or
          Accurately Applied ...................................................................................... Page 2
                    Recommendations 1 to 3: ................................................ Page 7

          Designated Payment Code Data Are Insufficient to
          Measure the Effectiveness of Lien Filings.................................................... Page 8
                    Recommendations 4 and 5: .............................................. Page 10


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................ Page 12
          Appendix II – Major Contributors to This Report ........................................ Page 15
          Appendix III – Report Distribution List ....................................................... Page 16
          Appendix IV – Outcome Measure ................................................................ Page 17
          Appendix V – List of Designated Payment Codes Used by the
          Collection Field Function ............................................................................. Page 18
          Appendix VI – List of Transaction Codes Requiring Designated
          Payment Codes.............................................................................................. Page 20
          Appendix VII – Glossary of Terms .............................................................. Page 21
          Appendix VIII – Management’s Response to the Draft Report ................... Page 24
               Designated Payment Codes
              Are Inaccurate and Ineffective




             Abbreviations

DPC    Designated Payment Code
IDRS   Integrated Data Retrieval System
IRS    Internal Revenue Service
TC     Transaction Code
                                               Designated Payment Codes
                                              Are Inaccurate and Ineffective




                                               Background

The Internal Revenue Service (IRS) receives taxpayer payments for several reasons and through
various methods. For example, some payments are voluntary, such as payments submitted with
a timely filed tax return. Other payments are submitted in response to IRS collection actions,
such as receipt of an IRS notice or the filing of a lien,1 when the taxpayer has a balance due
account. The IRS established two-digit Designated Payment Codes (DPC)2 to identify the event
(e.g., lien, levy, seizure, etc.) that was primarily responsible for the subsequent payment being
made. The DPCs are used at the time the subsequent payment is processed. Data from this type
of input are congressionally mandated and should be accumulated on a national basis to
determine the revenue effectiveness of specific collection activities.
The IRS requires employees to assign the appropriate DPC to subsequent payments on the
payment voucher documents:
          Form 809, Receipt for Payment of Taxes.
          Form 3244, Payment Posting Voucher.
These forms are then forwarded to an IRS submission processing center, where the payment is
applied to the taxpayer’s balance due account.
Subsequent payments made electronically by taxpayers using the Electronic Federal Tax
Payment System are systemically assigned a DPC based on the IRS tax form number. However,
electronic payments are not accepted for all types of collection actions. For example, a taxpayer
cannot submit an electronic payment for an offer in compromise.
This review was performed at the Small Business/Self-Employed Division Headquarters in
New Carrollton, Maryland, during the period May through August 2011. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objective. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objective. Detailed information on our audit objective, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




1
    See Appendix VII for a glossary of terms.
2
    See Appendix V for a list of DPCs used by the Collection Field function.
                                                                                            Page 1
                                         Designated Payment Codes
                                        Are Inaccurate and Ineffective




                                   Results of Review

Designated Payment Codes Are Not Consistently or Accurately
Applied
The Collection Field function and the Automated Collection System are required to apply a DPC
to all subsequent payments received. In addition, IRS procedures require that a DPC be applied
to subsequent payments received by Taxpayer Assistance Centers and Examination field offices.
Accordingly, the IRS is required to notate the DPC on all posting documents/vouchers
(e.g., Form 3244) used to process and post subsequent payments on balance due accounts.
We reviewed a statistical sample of 138 subsequent payments that posted to taxpayer balance
due accounts during the week ending April 3, 2010. These subsequent payments represent
payments taxpayers submitted on their balance due accounts because of a collection action taken
by the IRS. Our results showed that DPCs were not consistently or accurately applied in the
majority of cases. Figure 1 shows that only 15 percent of the subsequent payments reviewed
contained an accurate DPC.
          Figure 1: Accuracy of DPCs for Sampled Subsequent Payments




          Source: Treasury Inspector General for Tax Administration analysis of a sample of
          subsequent payments requiring DPCs.



                                                                                              Page 2
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



DPCs are not consistently applied to subsequent payments
The IRS is not coding all subsequent payments on taxpayer balance due accounts with the
appropriate DPC when required. Of the 138 sampled subsequent payments reviewed,
106 (77 percent) were processed without a DPC. For these 106 cases, there was no DPC (the
DPC field was blank) in 104 cases and the other two cases were processed with a DPC of “00,”
which indicates that the payment voucher did not have a DPC. For these 106 cases, our analysis
showed:
      76 subsequent payments (72 percent) were submitted after a collection action for which
       there is no DPC available.
       o 69 subsequent payments were submitted after a statutory notice was issued.
       o 7 subsequent payments were submitted after an IRS Underreporter Program notice
         was issued.
      21 subsequent payments (20 percent) were submitted after a Form 8519, Taxpayer’s
       Copy of Notice of Levy (hereafter referred to as notice of intent to levy), was issued, for
       which a DPC is available.
      9 subsequent payments (8 percent) were submitted for reasons we could not determine
       (miscellaneous).
We estimate that 676,593 subsequent payments were processed with no DPC during the week we
selected our sample. We are 90 percent confident the number of subsequent payments processed
without a DPC is between 624,356 and 728,831. We assume the other weeks during Fiscal
Year 2010 should be similar and, based on the results of our sample, estimate that more than
37 million subsequent payments were processed without the required DPC during Fiscal
Year 2010. We determined that DPCs were missing because:
      DPCs were not available for all types of subsequent payments.
      DPC procedures are inconsistent.
      The format, instructions, and processing of Form 3244 do not ensure DPCs are applied.
DPCs were not available for all types of subsequent payments
Although the IRS established DPCs to identify the event that was primarily responsible for the
subsequent payment being made, it has not established DPCs to identify all of the collection
actions that are responsible for subsequent payments. We determined that an IRS notice
(statutory and Underreporter Program notices) preceded 76 (72 percent) of the 106 subsequent
payments processed without a DPC. The subsequent payments were submitted for an installment
agreement which, in many cases, the taxpayers established in response to notices. However,
DPCs have not been established for subsequent payments made in response to statutory or
Underreporter Program notices.
                                                                                             Page 3
                                              Designated Payment Codes
                                             Are Inaccurate and Ineffective



Management advised us that DPCs should be used according to IRS procedures, which includes
cases assigned to the Automated Collection System, the Collection Field function, and those
awaiting assignment in the queue. IRS procedures also state that DPCs are not to be used on
routine balance due notices. However, because taxpayers make subsequent payments after
receiving notices, we believe there should be a corresponding DPC to meet the objective of
identifying the event that was primarily responsible for the subsequent payment being made.
DPC procedures are inconsistent
IRS procedures are inconsistent on when DPCs are required. Specifically, IRS procedures do not
require a DPC for subsequent payments directly submitted to an IRS campus. For example, no
DPC is required if a taxpayer receives a Notice of Intent to Levy and responds by sending a
payment directly to an IRS campus. In contrast, a DPC is required if that same taxpayer sends
the payment to a revenue officer. We were advised that the IRS does not require DPCs on
certain submission processing center subsequent payments because the event that was primarily
responsible for the subsequent payment cannot be determined by a submission processing center
employee. However, DPCs were established to identify the event that was primarily responsible
for the subsequent payment being made, regardless of where the payment is made.
The format, instructions, and processing of Form 3244 do not ensure that DPCs are applied
The IRS uses Form 3244 to transmit subsequent payments received from taxpayers to the
submission processing centers for deposit and posting. However, the format of Form 3244 may
be confusing when applying the appropriate DPC for the respective transaction code (TC).3 For
example, the form is preprinted with only three of the six TCs for which a DPC is mandatory.
However, there is only one preprinted space for a DPC, and it is aligned with the box pertaining
to TC 670. Figure 2 shows the layout of Form 3244.




3
    See Appendix VI for a list of TCs requiring a DPC.
                                                                                          Page 4
                                                Designated Payment Codes
                                               Are Inaccurate and Ineffective



                         Figure 2: Form 3244 – Payment Posting Voucher




Source: Internal Revenue Manual4pertaining to DPCs.

There are no detailed Internal Revenue Manual instructions on how to complete the form, and
the job aid pertaining to Form 3244 does not mention DPCs. In addition, Form 3244 processing
instructions do not require employees to determine an appropriate DPC. We were advised that
revenue officers use the Integrated Collection System to generate Form 3244, and the Integrated
Collection System will not generate Form 3244 without a DPC. However, the Integrated
Collection System will generate Form 3244 when DPC 00 is applied.
Further, Forms 3244 without DPCs are not considered critical errors,5 and the forms are
processed whether or not a DPC is provided. When there are critical errors identified on
Form 3244, IRS submission processing centers send Form 5919, Submission Processing Center
Teller’s Error Advice, to the originator of the Form 3244. However, IRS procedures specifically
state not to issue a Form 5919 for missing DPCs on Forms 3244. Therefore, the originators are
not getting feedback about the missing DPCs. This policy may have contributed to the large
number of subsequent payments that were processed with no DPC.

DPCs are not always accurately applied
Even when DPCs are used, they are often inaccurate. Our results showed that an incorrect DPC
was used in 11 (34 percent) of the 32 cases in which a DPC had been applied. Specifically, cases
were processed with the DPC in:


4
 Internal Revenue Manual 3.11.10 (January 1, 2012).
5
 Critical errors include alterations (of any kind), markovers, or erasures in critical fields. Critical fields are all
money amounts, date of issue, employee signature, taxpayer name, and identification number.
                                                                                                                   Page 5
                                     Designated Payment Codes
                                    Are Inaccurate and Ineffective



      ************************************1***********************************
       ************************************1**********************.
      7 instances indicating remittance with an amended return, but there was no amended
       return on these balance due accounts.
      *************************************1*********************************
       *************************************1**********************************
       **************************1*************.
We estimate that 70,213 subsequent payments were processed with an inaccurate DPC during the
week we selected our sample. We are 90 percent confident the number of inaccurate DPCs is
between 36,689 and 103,736. We assume other weeks during Fiscal Year 2010 should be similar
and, based on the results of our sample, estimate that 4 million subsequent payments were
processed with an inaccurate DPC during Fiscal Year 2010.
IRS procedures for the Collection Field function and the Automated Collection System do not
include any quality review of Form 3244 or payment vouchers to ensure the proper DPC is used.
In addition, the IRS submission processing function is responsible for processing subsequent
payments, and its procedures do not provide for a quality review for the accuracy of DPCs.
While the submission processing centers conduct quality reviews in the functions that receive
and sort subsequent payments before they are processed, this quality review does not include
assessing the accuracy of DPCs.
Because DPCs were not consistently or accurately applied, some of the information on collection
activity reports, which are used to monitor and report on collection activities, was also
inaccurate. Based on our sample, we estimate that the Fiscal Year 2010 Collection Activity
Report reflected 676,593 subsequent payments with no DPC and 70,213 subsequent payments
with an inaccurate DPC. In addition, the Fiscal Year 2011 Collection Activity Report showed
$16 billion (73 percent) of $22 billion collected with no DPC. As a result, the data are
incomplete and these reports are not useful for determining the effectiveness of specific
collection activities, as required by Congress.
Without consistent and accurate application of DPCs, the Collection function, Small Business/
Self-Employed Division, cannot fully understand the revenue effectiveness of specific collection
activities that cause taxpayers to make subsequent payments on their balance due modules. In
addition, the IRS is unable to assess the cost/benefit and effectiveness of certain collection
activities. Collection management agrees the potential exists to improve the usefulness of DPCs
and had already initiated a study of this issue. The IRS had not completed the study at the time
of our review.




                                                                                          Page 6
                                     Designated Payment Codes
                                    Are Inaccurate and Ineffective



Recommendations
To reduce the number of subsequent payments processed without a DPC, the Director,
Collection Policy, Small Business/Self-Employed Division, and the Director, Submission
Processing, Wage and Investment Division, should:
Recommendation 1: Ensure all IRS actions that are primarily responsible for taxpayers
submitting subsequent payments on their balance due accounts have an associated DPC.
       Management’s Response: The IRS’s planned corrective action agrees with the
       intent of our recommendation. The IRS agreed it is important to use associated DPCs
       correctly for payments when required by established procedures and plans to conduct an
       expanded DPC review. The review will determine which IRS actions primarily
       responsible for taxpayers submitting subsequent payments on their balance due accounts
       may be appropriate to have an associated DPC. The review plan includes an analysis of
       DPC source documents at Wage & Investment and Small Business/Self-Employed
       Division’s payment processing campuses, a DPC accuracy control review, process
       analysis of DPC selection, and program analyst and employee interviews. It also
       includes a review of the use of DPC data for collection program evaluation and cost
       accounting classification. The IRS will finalize and execute the review plan with
       assistance of the Research Analysis and Statistics Division, Office of Program Evaluation
       and Risk Analysis. Upon analysis of the review results, the IRS will determine
       additional appropriate actions to take related to the recommendation.
Recommendation 2: Ensure DPCs are applied consistently and accurately to subsequent
payments that require a DPC.
       Management’s Response: The IRS’s planned corrective action agrees with the
       intent of our recommendation. The IRS plans to conduct an expanded DPC review to
       determine which DPCs are effective and can be used consistently and accurately. IRS
       management will utilize the review results to make any necessary changes to the use and
       procedures governing DPCs and will communicate the procedures to their staff to ensure
       the DPCs are being used appropriately.
Recommendation 3: Revise Form 3244 and its instructions to clarify that a DPC is required
for all listed TCs.
       Management’s Response: The IRS’s planned corrective action agrees with the
       intent of our recommendation. As part of the analysis of its expanded DPC review, the
       IRS plans to assess the use, instructions, and effectiveness of the current Form 3244,
       focusing on identifying changes to improve the clarity and effectiveness of the use of
       Form 3244.



                                                                                         Page 7
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



Designated Payment Code Data Are Insufficient to Measure the
Effectiveness of Lien Filings
The filing of a Federal tax lien is an enforcement action available to the IRS. For all delinquent
accounts assigned to the Collection Field function or the Automated Collection System, a
determination must be made on whether or not to file a lien to protect the interests of the Federal
Government. In the 2009 Annual Report to Congress, the National Taxpayer Advocate
suggested the IRS’s use of liens may not be furthering the agency’s revenue collection objective
and the IRS has shown very little interest in evaluating the effectiveness of liens. The report
further stated that the IRS’s failure to accurately code and track the source of payments precludes
it from drawing useful conclusions about the effectiveness of its lien filings. As part of our
review of DPCs, we included a test of DPC information to determine the effectiveness of liens.
Our analysis showed that DPC information cannot be used to measure the effectiveness of liens.
For the 12-month period ending June 30, 2009, the IRS filed more than 948,000 liens on the
assets of taxpayers with a balance due module. From this population, we selected a random
sample of 120 balance due modules. Because one lien can be filed for more than one taxpayer’s
balance due module, we included an additional 116 balance due modules to the sampled
modules. Overall, we reviewed 236 balance due modules. For 75 modules (32 percent), the
taxpayers submitted 596 subsequent payments after the lien was filed. Our results showed that
for these 596 subsequent payments:
      360 subsequent payments (60 percent) had an appropriate DPC (other than lien). For
       example, 187 of the subsequent payments had a DPC indicating that the payments were
       the result of levy action taken against the taxpayer.
      30 subsequent payments (5 percent) had no DPC, and we determined that these
       subsequent payments were not due to the filing of the lien.
      203 subsequent payments (34 percent) had no DPC, and we determined that the
       subsequent payments could have been due to either the filing of the lien or the filing of a
       levy.
      3 subsequent payments (1 percent) had an appropriate DPC that indicated the subsequent
       payments were the result of the lien.
We identified two conditions that contributed to the poor reliability of DPC data with respect to
lien filings:
      Taxpayer motivation was uncertain.
      DPC procedures do not provide for partial subsequent payments resulting from liens.



                                                                                            Page 8
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



Taxpayer motivation was uncertain
For the 203 subsequent payments that did not have a DPC, we determined the subsequent
payments could have been due to a lien or a levy. It is routine practice to file both a lien and
issue a Form 8519 for the same balance due account. Because of the timing of both actions in
relation to the subsequent payments, we could not determine which of the enforcement actions
was responsible for the taxpayers submitting the subsequent payments. There is also the
possibility the taxpayers made the subsequent payments for some other unrelated reason.
After the IRS files a lien, it sends the taxpayer Letter 3172, Notice of Federal Tax Lien Filing
and Your Rights to a Hearing under IRC 6320 (hereafter referred to as a lien notice). The lien
notice advises the taxpayer of the lien filing and informs the taxpayer of his/her rights to appeal.
The lien notice does not instruct the taxpayer to include the notice with any subsequent payments
sent to the IRS. For this reason, the DPC pertaining to liens (DPC 07) is not assigned to
subsequent payments received after receipt of a lien notice. When the IRS takes levy action
against a taxpayer, it sends the taxpayer Form 8519. However, Form 8519 instructs the taxpayer
to include a copy of the notice with the payment. For this reason, DPC 15 (Payments Received
With Form 8519, Taxpayer Copy of Notice of Intent to Levy) should be applied when a
subsequent payment is received with Form 8519 included. This practice allows the IRS to
determine that the Notice of Intent to Levy motivated the taxpayer to submit the payment. It is
unclear why the IRS makes a distinction between subsequent payments received in response to
lien notices and subsequent payments received in response to Notices of Intent to Levy.

DPC procedures do not provide for partial subsequent payments resulting from
liens
We determined that 150 (74 percent) of 203 subsequent payments with no DPC were installment
agreement payments. These installment agreements were established after the filing of the lien,
and the lien could have influenced the taxpayer to enter into the installment agreement.
However, IRS procedures provide for crediting the influence of liens only to those subsequent
payments specifically made to secure release, discharge, withdrawal, or subordination of the lien.
The procedures do not allow the use of the DPC that applies to a lien when subsequent payments
are made for installment agreements, even if the installment agreement was established because
of the lien notice. As a result, DPC data do not provide complete information about liens, which
limits the IRS’s ability to determine lien effectiveness.




                                                                                             Page 9
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



Recommendations
To improve the reliability of DPC data in measuring the effectiveness of filing liens, the
Director, Collection Policy, Small Business/Self-Employed Division, and the Director,
Submission Processing, Wage and Investment Division, should:
Recommendation 4: Revise Letter 3172 to allow taxpayers to send in the notice with any
subsequent payments.
       Management’s Response: IRS management disagreed with this recommendation
       and stated that it places undue burden on the taxpayer, can potentially confuse procedures
       relative to Notice of Federal Tax Lien appeals, and replicates the procedures for the IRS’s
       use of Letter 3640, Lien Payoff Letter, when a taxpayer requests the balance due on a
       Notice of Federal Tax Lien. Management stated the primary function of Letter 3172 is to
       advise the taxpayer of collection due process rights in relation to the Notice of Federal
       Tax Lien. Expanding the letter to provide specific payoff and release information would
       make the letter cumbersome for the taxpayer to read and would compromise its
       effectiveness in explaining the appeal process. Requiring the taxpayer to submit
       additional paperwork each time they make a payment places an unnecessary burden on
       the taxpayer.
       Office of Audit Comments: The primary functions of Letter 3172 are to notify the
       taxpayer that the IRS filed a lien against the taxpayer and the taxpayer is entitled to a
       hearing in response to that filing. We did not recommend expanding Letter 3172 to
       provide specific payoff and release information. Our proposed recommendation makes
       the procedures for Letter 3172 consistent with those for Form 8519, which instructs the
       taxpayer to include a copy of the notice with the payment. This process would allow the
       IRS to associate payments made in response to lien notices in the same manner that it can
       associate payments made in response to levies. Also, this additional instruction would
       not be cumbersome for the taxpayer to read or compromise the letter’s effectiveness in
       explaining the appeal process. Notably, Letter 3640, which IRS management refers to in
       their response, also instructs the taxpayer to send his or her payment with a copy of
       Letter 3640 to the IRS. Based on the IRS’s response to our recommendation, it does not
       appear IRS management is concerned with the burden Form 8519 or Letter 3640 adds to
       the taxpayer. Therefore, it is not clear why the IRS has concerns with adding similar
       instructions to Letter 3172.
Recommendation 5: Establish DPCs to account for partial subsequent payments and
installment agreement payments made in response to the filing of a lien.
       Management’s Response: IRS management disagreed with this recommendation.
       Management believes the data yielded by the proposed recommendation would not
       accurately measure the target metric (i.e., the motivating factor for the payment). The

                                                                                             Page 10
                              Designated Payment Codes
                             Are Inaccurate and Ineffective



IRS, recognizing the limitation of using DPC data to measure the effectiveness of lien
filing, has used research studies to measure the impact of lien filing.
Office of Audit Comments: IRS management’s prior review of DPC results also
showed that the DPC for liens was applied only when a taxpayer fully paid a liability
expressly to obtain a lien release. A unique DPC for installment agreements established
as a result of a lien filing would allow the IRS to associate the payments with the lien
filing. The prior IRS research studies that we reviewed during this audit measure the
impact of lien filing by focusing on the change in the taxpayer’s balance due account
amount over time. Any changes over time could have been caused by different factors
not related to the filing of the lien. Our recommendation is intended to allow the IRS to
measure the impact of filing liens by identifying specific subsequent payments made by
the taxpayer due to the filing of a lien.




                                                                                  Page 11
                                                 Designated Payment Codes
                                                Are Inaccurate and Ineffective



                                                                                     Appendix I

            Detailed Objective, Scope, and Methodology

Our objective was to determine whether the IRS is consistent and accurate in applying DPCs to
subsequent payments received on balance due accounts.1 To accomplish the objective, we:
I.         Evaluated IRS controls, policies, and procedures pertaining to DPCs.
           A. Reviewed IRS procedures.
           B. Reviewed management information system reports on DPCs to assess their reliability
              in showing the effectiveness of specific collection activities.
           C. Assessed the effectiveness of payment voucher documents (Form 809, Receipt for
              Payment of Taxes, and Form 3244, Payment Posting Voucher) in determining the
              appropriate DPC to apply to subsequent payments.
II.        Determined whether the IRS consistently and accurately applied DPCs to subsequent
           payments that were processed using TCs 640, 670, 680, 690, 694, and 700.
           A. Analyzed data from an Individual Master File extract of TCs 640, 670, 680, 690, 694,
              and 700 posted during the week ending April 3, 2010. We also determined the
              frequency of use for DPCs “00” and “99” or where the DPC field was blank.
           B. Selected a statistically valid sample of 271 transactions with TCs 640, 670, 680, 690,
              694, and 700 from the extract in Step II.A. from a population of 880,848 transactions
              posted during the week ending April 3, 2010. The sample was selected using a
              random number generator. We used a statistical sample because we wanted to project
              the number of cases with errors. Based on an error rate of 85 percent for the first
              120 cases, we revised our sample size to 138:
                            Population – 880,848
                            Confidence Level – 90 percent
                            Expected Rate of Occurrence – 85 percent
                            Precision Rate – ±5 percent.
               1. Validated the computer-processed data in our sample by comparing the sample
                  information to that found on the Integrated Data Retrieval System (IDRS) using
                  command codes. We determined the data were sufficiently reliable for this audit.

1
    See Appendix VII for a glossary of terms.
                                                                                            Page 12
                                     Designated Payment Codes
                                    Are Inaccurate and Ineffective



          2. Determined whether a DPC was applied consistently and accurately when
             TCs 640, 670, 680, 690, 694, and 700 were used to post the subsequent payment.
          3. Using various IDRS command codes, researched the applicable taxpayer balance
             due module to determine if the applied DPC accurately described why the
             taxpayer submitted the payment on the balance due account.
          4. For cases where the DPC was not accurate, blank, or contained “00” or “99,”
             researched the IDRS to determine the DPC that best described why the taxpayer
             submitted the payment.
          5. Analyzed data from an Individual Master File extract to determine that there were
             48,554,415 subsequent payments that posted with TCs 640, 670, 680, 690, 694,
             and 700 during Fiscal Year 2010. We multiplied the 48,554,415 by the point
             estimate for a two-sided 90 percent confidence interval exception rate of
             76.81 percent to calculate the 37 million subsequent payments we estimate were
             processed with no DPC during Fiscal Year 2010.
          6. Analyzed data from an Individual Master File extract to determine that there were
             48,554,415 subsequent payments that posted with TCs 640, 670, 680, 690, 694,
             and 700 during Fiscal Year 2010. We multiplied the 48,554,415 by the point
             estimate for a two-sided 90 percent confidence interval exception rate of
             7.97 percent to calculate the 4 million subsequent payments we estimate were
             processed with an inaccurate DPC during Fiscal Year 2010.
III.   Determined whether the IRS consistently and accurately applied DPCs to subsequent
       payments submitted because of a Federal tax lien.
       A. Selected a random sample of 120 balance due modules on which the IRS filed a lien.
          We selected the sample from an Automated Lien System extract of 948,051 liens
          filed by the IRS nationwide between July 1, 2008, and June 30, 2009. The sample
          was selected using a random number generator. We used a random sample to ensure
          every lien case had an equal chance of being selected from the entire population.
          1. The Automated Lien System data used to select our sample were validated as part
             of the Fiscal Year 2010 statutory review of liens and we determined the data were
             sufficiently reliable for this audit.
          2. Using various IDRS command codes, researched the applicable taxpayer tax
             module to determine:
              a. The status of the Federal tax lien.
              b. The status of the unpaid tax liability pertaining to the Federal tax lien.
              c. The DPCs applied to all subsequent payments.

                                                                                              Page 13
                                     Designated Payment Codes
                                    Are Inaccurate and Ineffective



           3. Determined whether a DPC was applied consistently and accurately when
              TCs 640, 670, 680, 690, 694, and 700 were used to post the subsequent payment
              submitted because of a Federal tax lien.
           4. Using various IDRS command codes, researched the applicable tax module and
              determined if the applied DPC accurately described why the taxpayer submitted
              the payment on the balance due account.
           5. For cases where the DPC is not accurate, blank, or contained “00” or “99,”
              researched the IDRS to determine the DPC that best described why the taxpayer
              submitted the payment.
Internal controls methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined the following
internal controls were relevant to our audit objective: the Small Business/Self-Employed
Division collection policies, procedures, and practices for appropriately applying DPCs to
subsequent payments received. We evaluated these controls by interviewing management and
reviewing samples of subsequent payments requiring DPCs.




                                                                                        Page 14
                                   Designated Payment Codes
                                  Are Inaccurate and Ineffective



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Carl Aley, Director
Timothy Greiner, Audit Manager
Meaghan Tocco, Lead Auditor
Nicole DeBernardi, Auditor
Joel Weaver, Auditor
Joseph L. Katz, Ph.D., Contractor, Statistical Sampling Consultant




                                                                                      Page 15
                                  Designated Payment Codes
                                 Are Inaccurate and Ineffective



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Commissioner, Wage and Investment Division SE:W
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Collection Policy, Small Business/Self-Employed Division SE:S:C
Director, Submission Processing, Wage and Investment Division SE:W:CAS:SP
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W




                                                                              Page 16
                                                 Designated Payment Codes
                                                Are Inaccurate and Ineffective



                                                                                  Appendix IV

                                        Outcome Measure

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. This benefit will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
     Reliability of Information – Potential; 676,593 subsequent payments1 reported on the Fiscal
      Year 2010 Collection Activity Report with no DPC and 70,213 subsequent payments
      included on the Fiscal Year 2010 Collection Activity Report with an inaccurate DPC (see
      page 2).

Methodology Used to Measure the Reported Benefit:
From a statistically valid sample of 138 transactions from an Individual Master File extract of
transaction codes posted during the week ending April 3, 2010, for which a DPC was required,
we found 104 (75 percent) subsequent payments that were processed without a DPC and
11 (8 percent) that were processed with an inaccurate DPC. The sample was selected based on a
confidence level of 90 percent, a precision rate of ± 5 percent, and an expected rate of occurrence
of 85 percent. We projected the findings to the total population of 880,848 subsequent payments
with TCs for which a DPC is required that posted during the week ending April 3, 2010.
          We estimate 676,593 subsequent payments were processed with no DPC and are
           90 percent confident the number of subsequent payments processed without a DPC is
           between 624,356 and 728,831.
          We estimate 70,213 subsequent payments were processed with an inaccurate DPC and
           are 90 percent confident the number of subsequent payments processed with an
           inaccurate DPC is between 36,689 and 103,736.




1
    See Appendix VII for a glossary of terms.
                                                                                           Page 17
                                   Designated Payment Codes
                                  Are Inaccurate and Ineffective



                                                                              Appendix V

              List of Designated Payment Codes
             Used by the Collection Field Function

DPC                                         Definition
00    Designated payment indicator is not present on posting voucher
01    Non-Trust Fund payment (alternate definition for Master File Tax Code 55 only:
      Payment applied to penalty other than Trust Fund Recovery Penalty)
02    Trust Fund payment (alternate definition for Master File Tax Code 55 only: Payment
      applied to Trust Fund Recovery Penalty)
03    Bankruptcy, undesignated payment
04    Levy on State income tax refund (prior to 07/22/1998)
05    Notice of levy
06    Seizure and sale
07    Federal tax lien
08    Suit
09    Offer in compromise
10    Manually monitored installment agreement
11    Bankruptcy payment, designated to trust fund
12    Cash bond credit (allowed with Transaction Code 640 only)
13    Payment in response to reminder notice, deferred taxes
14    Authorization given by taxpayer to apply payment to expired Collection Statute
      Expiration Date account
15    Payments received with Form 8519, Taxpayer’s Copy of Notice of Levy
24    Payment with amended return
31    Exclude payment from systemic cross-reference processing to allow treatment of each
      spouse differently on a joint return (Master File Tax Code 31)



                                                                                       Page 18
                                               Designated Payment Codes
                                              Are Inaccurate and Ineffective




DPC                                                        Definition
    33     Offer in compromise $150.00 application fee
    34     Offer in compromise 20% lump sum/initial periodic payment
    35     Offer in compromise subsequent payments made during the offer investigation
    99     Miscellaneous payment other than above
Source: Internal Revenue Manual1 pertaining to the application of DPCs.




1
    Internal Revenue Manual 5.1.2.8.1.4 thru 5.1.2.8.1.6 (July 13, 2010).
                                                                                         Page 19
                                              Designated Payment Codes
                                             Are Inaccurate and Ineffective



                                                                              Appendix VI

                     List of Transaction Codes Requiring
                          Designated Payment Codes




Source: Internal Revenue Manual1 pertaining to the application of DPCs.




1
    Internal Revenue Manual 3.11.10.5.10(1) (January 1, 2012).
                                                                                   Page 20
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



                                                                                 Appendix VII

                                Glossary of Terms

Area Office – A geographic organizational level used by IRS business units and offices to help
specific types of taxpayers understand and comply with tax laws and issues.
Automated Collection System – A telephone contact system through which telephone assistors
collect unpaid taxes and secure tax returns from delinquent taxpayers who have not complied
with previous notices.
Automated Lien System – The system that stores Federal tax lien and collection due process
document data; uses information and provides the tools for users to create, release, refile, and
withdraw liens; revokes releases; processes collection due process letters; and prints lien and
collection due process letter facsimiles.
Balance Due Account – A balance due account occurs when the taxpayer has an outstanding
liability for taxes, penalties, and/or interest.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the computing centers for analysis and posting to
taxpayer accounts.
Collection Activity Reports – A group of reports providing management information to field
and Headquarters Collection officials. The reports reflect activity associated with taxpayer
delinquency accounts; the issuance of taxpayer delinquency inquiries; and the issuance,
disposition, and inventories of installment agreements, as well as collection-related payments.
Collection Field Function – The unit in the Area Offices consisting of revenue officers who
handle personal contacts with taxpayers to collect delinquent accounts or secure unfiled returns.
Command Code – A five-character abbreviation for a particular inquiry or action requested
through the IDRS. Each command code is used for a specific purpose.
Electronic Federal Tax Payment System – The system that processes electronic Federal tax
deposits and all other types of business and individual payments submitted electronically.
Examination Field Office – Area offices consisting of revenue agents who handle office
examinations of individuals, partnerships, and corporations.
Individual Master File – The IRS database that maintains transactions or records of individual
tax accounts.
Installment Agreement – Arrangements by which the IRS allows taxpayers to pay liabilities
over time.
                                                                                           Page 21
                                       Designated Payment Codes
                                      Are Inaccurate and Ineffective



Integrated Collection System – An information management system designed to improve
revenue collections by providing revenue officers access to the most current taxpayer
information, while in the field, using laptop computers for quicker case resolution and improved
customer service.
Integrated Data Retrieval System – The IRS computer system that is capable of retrieving and
updating stored taxpayer information. It works in conjunction with a taxpayer’s account records.
IRS Oversight Board – A nine-member independent body charged to oversee the IRS in its
administration, management, conduct, direction, and supervision of the execution and application
of the Internal Revenue laws and to provide experience, independence, and stability to the IRS so
it may move forward in a cogent, focused direction.
Job Aid for Form 3244 – Guidelines for Collection Field function personnel to follow when
completing Form 3244, Payment Posting Voucher. These guidelines were created to align with
current Collection function procedures.
Levy – A method used by the IRS to collect outstanding taxes from sources such as bank
accounts and wages.
Lien – An encumbrance on property or rights to property as security for outstanding taxes.
Module – Refers to each tax return filed by the taxpayer for a specific period (year or quarter)
during a calendar year for each type of tax.
Notice of Intent to Levy (Form 8519) – Notice advising the taxpayer that the IRS intends to
levy on certain assets, and what steps the taxpayer needs to take within 30 days to prevent the
IRS from taking this action.
Offer in Compromise – An agreement between a taxpayer and the IRS that settles the
taxpayer’s tax liabilities for less than the full amount owed.
Queue – An automated holding file for unassigned inventory of delinquent cases for which the
Collection function does not have enough resources to assign immediately for contact.
Revenue Officer – Employees in the Collection Field function who attempt to contact taxpayers
and resolve collection matters that have not been resolved through notices sent by the IRS
campuses or the Automated Collection System.
Seizure – The taking of a taxpayer’s property to satisfy his or her outstanding tax liability.
Statutory Notice – A notice of deficiency that explains the purpose of the notice, the amount of
the deficiency, the taxpayer’s options, a waiver to allow the taxpayer to agree to the additional
tax liability, and a statement showing how the deficiency was computed.




                                                                                             Page 22
                                      Designated Payment Codes
                                     Are Inaccurate and Ineffective



Submission Processing Center – The data processing arm of the IRS. The sites process paper
and electronic submissions, correct errors, and forward data to the computing centers for analysis
and posting to taxpayer accounts.
Subsequent Payment – A payment on a taxpayer account for a tax return that was filed but not
fully paid.
Taxpayer Assistance Center – IRS offices with employees who provide face-to-face assistance
to taxpayers by answering questions and resolving account-related issues. These offices include
walk-in sites where taxpayers can obtain answers to both account and tax law questions, as well
as receive assistance in preparing their tax returns.
Transaction Code – Three-digit codes used to identify a processed transaction and to maintain a
history of actions posted to a taxpayer’s account on the Master File.
Underreporter Program – The system that matches items reported on an individual’s income
tax return to information supplied to the IRS from outside sources (such as employers, banks,
and credit unions) to determine whether the taxpayer’s tax return reflects the correct amounts,
ensuring the tax amount is correct.




                                                                                          Page 23
               Designated Payment Codes
              Are Inaccurate and Ineffective



                                               Appendix VIII

Management’s Response to the Draft Report




                                                        

                                                      Page 24
 Designated Payment Codes
Are Inaccurate and Ineffective




                                  
                                  Page 25
 Designated Payment Codes
Are Inaccurate and Ineffective




                                        
                                 Page 26
 Designated Payment Codes
Are Inaccurate and Ineffective




                                            

                                 Page 27
 Designated Payment Codes
Are Inaccurate and Ineffective




                                            

                                 Page 28
